No. _ _ _ __

~n

~upreme ~ourt

UCbt

of tbe llniteb ~tates

Terrence Trent Pendergrass v. United States of America
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under
penalty of perjury that the following is true and correct. On this, the 5th day
of November, 2020, Pursuant to (ORDER LIST: 589 U.S.) I filed the foregoing
petition with the United States Supreme Court electronically and deposited
one (1) paper copy via UPS Ground Transportation to the following:
Lara Eshkenazi
United States Attorney's Office for the
Southern District of NewYork
3rd Floor
86 Chambers Street
New York, NY 10007
Daniel C. Richenthal
Assistant United States Attorney
United States Attorney's Office for the
Southern District of New York
1 St. Andrew's Plaza
New York, NY 10007
Counsel for Respondent

Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Noell P. Tin
Tin, Fulton, Walker
& Owen, PLLC
301 East Park Avenue
Charlotte, NC 28203
(704) 338-1220
ntin@tinfulton.com
Counsel for Petitioner

Signed and subscribed before me on this 5th day of November, 2020.

Bradford E. Moore

NOTARY PUBLIC

Commonwealth of Virginia
.

Reg. #7241026

Commission Exp. 4/30/2021

